IN THE SUPREME COURT OF THE UNITED STATES
OCTOBER TERM 2020
NO. _______

RYAN SCOTT KIBBLE, Petitioner,
v.
UNITED STATES OF AMERICA, Respondent.
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Petitioner Ryan Scott Kibble asks leave to file the attached Petition for Writ
of Certiorari, without prepayment of costs, and to proceed in forma pauperis.
Pursuant to the provisions of the Criminal Justice Act, Petitioner was previously
granted leave to proceed in both the United States District Court for the Southern
District of West Virginia and the United States Court of Appeals for the Fourth
Circuit on this case.
RYAN SCOTT KIBBLE
By Counsel

Jonathan D. Byrne
Appellate Counsel
Office of the Federal Public Defender
Southern District of West Virginia
Counsel for Petitioner

